No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
TIMOTHY IVEY,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
NOW COMES Petitioner Timothy Ivey, through undersigned counsel, and
moves this Honorable Court for leave to proceed in forma pauperis and to file the
attached Petition for Writ of Certiorari without prepayment of costs, pursuant to
Supreme Court Rule 39 and 18 U.S.C. ยง 3006A(d)(7). A United States Magistrate
Judge for the Eastern District of Louisiana declared Mr. Ivey indigent and appointed
the Federal Public Defender to represent him in this case. See United States v. Ivey,
No. 2:06-CR-00234, Dkt. 630, (E.D. La. Oct. 28, 2019) (order) (attached hereto).
WHEREFORE, Petitioner respectfully moves this Honorable Court for leave
to proceed in forma pauperis and to file the attached Petition for Writ of Certiorari
without prepayment of costs.

Respectfully submitted this 15th day of January, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

Case 2:06-cr-00234-LMA-JCW Document 630 Filed 10/28/19 Page 1 of 1

